;a-3-'1

In the Supreme Court of the United
States
DARIN JONES,
Petitioner,
v.
UNITED STATES DEPARTMENT OF JUSTICE
AND FEDERAL BUREAU OF INVESTIGATION,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE D.C. CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
Darin A. Jones, Esq., pro se
5266 Pooks Hill Road
Bethesda, MD 20814
(803) 467-1734 phone
darinjones@hotmail.com

LEGAL Printers LLC • Washington, DC • 202-747-2400 • legalprinters.com

QUESTIONS PRESENTED
5 U.S.C. § 7702(e)(1)(B) states that an
employee may file a civil action in district court 120
days after filing an appeal with the Merit Systems
Protection Board (MSPB or Board) with no judicially
reviewable action that involves a claim under federal
anti-discrimination laws.
In Perry v. Merit Systems Protection Board,
137 S. Ct. 1975 (2017), this Court held that judicial
review of MSPB “mixed cases” that involves a claim
under federal anti-discrimination laws and are
dismissed by the Board for lack of jurisdiction is in
district court. Prior to Perry, judicial review of the
jurisdictional claim and discrimination claim(s) of
“mixed cases” were bifurcated between the U.S.
Court of Appeals for the Federal Circuit and in
district court, respectively.
The questions presented are as follows:
1. Whether the 120 day time bar of 5 U.S.C. §
7702(e)(1)(B) is nonjurisdictional.
2. After Perry, whether the district court can
consider a Fed. R. Civ. P. 60(b) motion for relief from
judgment on the jurisdictional claim of a MSPB
“mixed case” that was ruled on by the Federal
Circuit.

l

■

PARTIES TO THE PROCEEDING
Petitioner is Darin Jones, who was the
appellant in the court of appeals. Jones is an
attorney, and is representing himself, pro se, before
this Court as he did before the D.C. Circuit and the
district court.
Respondents are the United States
Department of Justice and Federal Bureau of
Investigation, who were the appellees in the court of
appeals.
RELATED PROCEEDINGS
United States Merit Systems Protection Board:
Darin A. Jones u. Department of Justice, DC-315112-0847-1-1 (October 28, 2013)
United States Court of Appeals for the Federal
Circuit:
Jones v. MSPB, 2014-3050 (Fed. Cir. March 18,
2015), cert, denied (January 11, 2016)
Jones v. MSPB, 2016-1711 (Fed. Cir. January 10,
2017), cert, denied (October 2, 2017)
United States District Court for the District of
Columbia:
Darin Jones u. United States Department of
Justice and Federal Bureau of Investigation, No.
l:13-cv-00008-RMC (July 1, 2015)
Darin Jones v. United States Department of
Justice and Federal Bureau of Investigation, No.
l:13-cv-00008-RMC (May 25, 2018)

n

-a

oi:.. ..±.

United States Court of Appeals for the District of
Columbia Circuit:
Darin Jones v. United States Department of
Justice and Federal Bureau of Investigation, No. 155246 (July 14, 2017), reh’g denied (September 12,
2017)
Darin Jones v. United States Department of
Justice and Federal Bureau of Investigation, No. 185234 (March 1, 2019), reh’g denied (July 10, 2019)

m

fe.

v

TABLE OF CONTENTS
Page
1
Questions presented..............
n
Parties to the proceeding ....
n
Related proceedings .............
vi
Table of authorities ............ .
1
Introduction.............................
5
Opinions below ..................... .
5
Jurisdiction..............................
5
Statutory provision involved
5
Statement of the case............
A.
Background.............
5
8
B.
Proceedings below...
Reasons for granting the petition
13
I.
This Court’s decision in Kwai Fun Wong
shows that the 120 day time bar of 5
U.S.C. § 7702(e)(1)(B) is
nonjurisdictional.................................. 19
II.
The circuit split on Kwai Fun Wong
providing that most time bars are
nonjurisdictional requires review to
bring coherence and clarity to 5 U.S.C.
§ 7702(e)(1)(B)
23
III. This Court’s decision in Perry does not
abrogate the proper application of Rule
24
60(b)
IV.
The questions presented are important
and warrant this Court’s review.........27
Conclusion ..............................................................
29
Appendix A - Court of appeals 18-5234 order
granting motion for summary
affirmance (March 1, 2019)......
la
IV

•-

■■■■m

Appendix B - District court opinion and order
(May 25, 2018) ................................... 3a
Appendix C - Court of appeals 15-5246 judgment
(July 14, 2017) ............................. 13a
Appendix D - District court opinion and order
(July 1, 2015) ............................... 17a
Appendix E - Court of appeals 18-5234 order
denying rehearing
(July 10, 2019) ............................ 37a
Appendix F - Court of appeals 18-5234 order
denying rehearing en banc
(July 10, 2019) ............................. 39a
Appendix G - Court of appeals 15-5246 order
denying rehearing
(September 12, 2017)................. 41a
Appendix H - Court of appeals 15-5246 order
denying rehearing en banc
(September 12, 2017)................. 43a
Appendix I - Supreme Court clerk letter
denying 15-670 petition for a
writ of certiorari
(January 11, 2016) ...................... 45a
Appendix J - Supreme Court clerk letter
denying 16-1471 petition for
a writ of certiorari
(October 2, 2017) ......................... 46a
Appendix K - Statutory provision.................... 47a

v

'f

TABLE OF AUTHORITIES
Page(s)

Cases:
Agostini v. Felton, 521 U.S. 203
(1997) .................. ..... .............

3, 4, 15, 24, 25, 28

Argabright v. Department of Defense,
113 M.S.P.R. 152 (2010) ................

17, 18

Butler v. West, 164 F.3d 634 ;
(D C. Cir. 1999) ..... ....... ..... 1, 2, 14-16, 18, 20, 23
Craker v. Drug Enf't Admin.,
714 F.3d 17 (1st Cir. 2013) ...:............

22

Cunningham v. Department of the Army,
119 M.S.P.R. 147 (2013)............. ........

9, 10

i

Davis v. United States, 417 U.S. 333
(1974) ............................ ..................

15, 25

Foman v. Davis, 371 U.S. 178 (1962)

1

Jones v. Department of Health and
Human Services, 834 F.3d 1361
(Fed. Cir. 2016).............. ............ 2, 11, 13-15, 19-23
Keating v. FERC, 569 F.3d 427 (D.C. Cir. 2009)
Kloeckner v. Solis,
133 S. Ct. 596 (2012)

4

1, 3, 10, 15, 27

vi

Kramer v. Gates, 481 F.3d 788
(D.C. Cir. 2007) ..................

10, 26

Morris v. McCarthy, 825 F.3d 658
(D.C. Cir. 2016) ........................

21, 22

Moses H. Cone Mem. Hosp. v. Mercury
Constr. Corp., 460 U.S. 1 (1983) ....

22

Perry v. Merit Systems Protection Board,
137 S. Ct. 1975 (2017) ..........................

passim

Pierce v. SEC, 786 F.3d 1027 (D.C. Cir. 2015)
Selig v. Department of the Army,
102 M.S.P.R. 189 (2006)........
Smalls v. United States, 471 F.3d 186
(D.C. Cir. 2006) ................................
Taxpayers Watchdog, Inc. v. Stanley,
819 F.2d 294 (D.C. Cir. 1987) ......

4

17, 18

21, 25, 26

19

Thompson v. District of Columbia, 2014-7210,
(D.C. Cir. August 12, 2016)........................... 16, 17
United States v. Kwai Fun Wong,
135 S. Ct. 1625 (2015) ............
W. Union Tel. Co. u. FCC, 773 F.2d 375
(D.C. Cir. 1985) ..................................

Vll

passim

26

=r.

Statutes:
5 U.S.C.§ 7511(a)(1)(B), (b)(8).................
8
5 U.S.C. § 7702(e)(1)(B)........... ,...............
passim
5 U.S.C. § 7703(b)(1)(A)............................
... 2, 28
..25, 26
28 U.S.C. § 1254..... ...................................
Title VII of the Civil Rights Act of 1964,
42 U.S.C. §§ 2000e et seq.
2, 10, 16, 20, 21, 27

Other Authorities:
Fed. R. Civ. P. 60(b) ...3, 4, 13, 14, 18, 19, 23-26, 28, 29
U.S. Merit Systems Protection Board,
Congressional Budget Justification
FY 2017 (Feb. 2016),
available at http://tinyurl.com/zcv61xj
(last visited Jun. 3, 2017).....................

Vlll

27

INTRODUCTION
Despite the clarification and coherence that
this Court provided to the statutory regime
governing judicial review of decisions by the Merit
Systems Protection Board (MSPB or Board) in Perry
v. Merit Systems Protection Board, 137 S. Ct. 1975
(2017) and Kloeckner v. Solis, 133 S. Ct. 596 (2012),
the Court’s job is not yet finished because there
remains a threshold statutory interpretation
question regarding jurisdiction with 5 U.S.C. §
7702(e)(1)(B) that must be resolved. Yes, §
7702(e)(1)(B) is mentioned in both Perry and
Kloeckner; however, there is no question presented
in Perry or Kloeckner on § 7702(e)(l)(B)’s 120 day
time bar, and as such, there was no analysis on
whether the 120 day time bar is jurisdictional.
Nonetheless, in United States v. KwaiFun Wong,
135 S. Ct. 1625 (2015), an intervening case between
Kloeckner and Perry, this Court held that “most time
bars are nonjurisdictional,” 135 S. Ct. at 1632. Here,
even though Kwai Fun Wong is controlling on the
D.C. Circuit, and even though Jones argued that
Kwai Fun Wong would warrant a different result in
his case, the court of appeals abused its discretion
when it failed to consider, much less distinguish,
Kwai Fun Wong to its precedent interpreting §
7702(e)(1)(B), Butler v. West, 164 F.3d 634 (D.C. Cir.
1999), and dismissed Jones’s case by summarily
affirming the district court’s decision. See Foman v.
Davis, 371 U.S. 178, 182 (1962). The district court
strictly followed Butler in its first ever decision on
whether Kwai Fun Wong has any effect on the 120
day time bar of § 7702(e)(1)(B).
1

fc.

The court of appeals should have applied Kwai
Fun Wong to overrule its Butler precedent from 1999
and find that Jones’s prematurely filed Title VII of
the Civil Rights Act of 1964, 42 U.S.C. §§ 2000e et
seq., complaint ripened on review.
In a case similar to Jones’s, the Federal
Circuit in Jones u. Department of Health and Human
Services, 834 F.3d 1361 (Fed. Cir. 2016) held, in
specific accordance with Kwai Fun Wong, that a
prematurely filed MSPB appeal ripened on review
when the MSPB’s initial decision became final, 834
F.3d at 1365-1366. The Federal Circuit analyzed
Kwai Fun Wong to determine that the 60 day time
bar in 5 U.S.C. § 7703(b)(1)(A) is nonjurisdictional.
Id. Here, both the D.C. Circuit and the district court
summarily dismissed the Federal Circuit’s analysis
of Kwai Fun Wong to § 7702(e)(1)(B) and Butler.
According to Butler, Jones’s Title VII
complaint was prematurely filed before 120 days had
passed in violation of § 7702(e)(1)(B) and was
summarily dismissed. It is undisputed that Jones’s
MSPB case is a “mixed case” appeal that the MSPB
dismissed for lack of jurisdiction. Both of Jones’s
prior petitions to this Court on the Federal Circuit’s
errors in failing to find MSPB jurisdiction were
denied: 15-670 was denied on January 11, 2016, and
16-1471 was denied on October 2, 2017. Because
Jones’s “mixed case” was dismissed for lack of
jurisdiction, Jones cannot return to the MSPB and
he has no forum on which to rebring his
discrimination claims, directly contrary to
Congressional intent with Title VII. It has been
more than seven years since Jones brought his
wrongful termination and retaliation discrimination
2

claims to the Board, and he still has not received any
ruling whatsoever on any of his claims. With §
7702(e)(1)(B), Congress unequivocally did not intend
that Jones would have to endure this exhaustingly
painful and financially draining process to simply
obtain a ruling on his federal anti-discrimination
laws claims. The absence of review will mean that
Jones will never receive a ruling on his rightful
discrimination claims, and all of the countless
federal employees also affected by Perry who happen
to prematurely file in district court before 120 days
will have their rightful anti-discrimination claims
live in eternity as well without ever receiving a
ruling.1 Few things are more unfair than not having
a forum on which to bring federal antidiscrimination laws claims for simply filing too soon.
Because neither Perry nor Kloeckner addressed the
jurisdictional threshold question of the 120 day time
bar of § 7702(e)(1)(B), this Court should do so now.
Moreover, this case presents this Court with
the opportunity to clarify that Perry did not
“abrogate” the proper application of Rule 60(b). See,
e.g., Agostini v. Felton, 521 U.S. 203, 238-40 (1997).
It was certainly foreseeable when Perry was decided
that a properly submitted Rule 60(b) motion on the
“unlawfully bifurcated” jurisdictional claim ruling
from the Federal Circuit could be submitted to a
district court for review. Even though there is
nothing in Perry that abrogates this foreseeable
action, the D.C. Circuit summarily affirmed the
district court’s first ever decision that Perry provides
1 § 7702(e)(1)(B) applies to all federal employees with MSPB
“mixed cases” and not just those controlled by Perry where the
MSPB dismissed the appeal for lack of jurisdiction.

3

-3

7^-

no authority for Jones to submit his 60(b) motion on
the Federal Circuit’s judgment to the district court.
This Court should find that Perry provides
that a properly submitted Rule 60(b) motion on the
jurisdictional claim ruled on by the Federal Circuit
can be reviewed by the district court.
Further, this Court’s decision that Perry did
not abrogate the proper application of Rule 60(b) will
allow the basis of the questions presented from
Jones’s prior petitions - 15-670 and 16-1471 whether MSPB jurisdiction can be established by
government misconduct, i.e., estoppel, to be reviewed
in district court (and possibly the D.C. Circuit) under
D.C. Circuit precedent. Jones has demonstrated
before the D.C. Circuit that its estoppel precedent,
Keating v. FERC, 569 F.3d 427 (D.C. Cir. 2009) and
Pierce v. SEC, 786 F.3d 1027 (D.C. Cir. 2015),
provides Board jurisdiction in his case. The absence
of review will result in Jones never receiving any
measure of justice on either of his “unlawfully
bifurcated” “mixed case” claims, § 7702(e)(1)(B) will
continue to be misinterpreted to the detriment of all
federal employees with “mixed cases,” the proper
application of Rule 60(b) will have been abrogated in
violation of Agostini, it appears very unlikely if or
even when the questions presented will ever be
resolved, and the court of appeals will continue to
abuse its discretion by failing to consider this Court’s
precedent when it does not comply with its own.
Accordingly, this Court should grant this petition
and reverse the judgment.

4

—3

OPINIONS BELOW2
The 18-5234 order of the court of appeals
(App., infra, la-2a) is not reported. The 15-5246
judgment of the court of appeals (App., infra, 13a16a) is not reported. The opinions of the district
court (App., infra, 3a-12a, 17a-36a) are reported at
xxx and xxx.
JURISDICTION
The 18-5234 order of the court of appeals was
entered on March 1, 2019. A combined petition for
rehearing and rehearing en banc was denied on July
10, 2019 (App., infra, 37a-40a). The jurisdiction of
this Court is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISION INVOLVED
The statutory provision is reproduced in the
appendix to this petition. App., infra, 47a.
STATEMENT OF THE CASE
A. Background
Darin Jones has devoted his career to military
and federal service. Before law school, Jones was an
officer in the U.S. Navy’s Civil Engineer Corps and
was Honorably Discharged as a Lieutenant, and he
worked as a GS-1102-12 Contract Specialist at the
U.S. Department of Homeland Security (DHS).
2 Jones was unable to locate the citations for the opinions below
before submitting this petition.

5

Following law school, Jones was hired by the U.S.
General Services Administration (GSA) in
September 2007 as a GS-1102-13 Contract
Specialist. In less than 17 months, in February
2009, Jones was promoted to a GS-1102-14 Lead
Contract Specialist at GSA. In August 2011, Jones
transferred from GSA to the Federal Bureau of
Investigation (FBI) without a break in service as a
tenured employee to begin working as a GS-1102-15
Supervisory Contract Specialist.
During Jones’s year of employment at the
FBI, Jones made eight (8) whistleblower disclosures
to his supervisors describing what Jones reasonably
believed were violations of the Federal Acquisition
Regulation (FAR), the Procurement Integrity Act,
FBI Procurement Regulations, and other related
procurement regulation violations.3 After more than
3 FBI whistleblower cases are governed by 5 U.S.C. § 2303 and
28 C.F.R. part 27. Jones was unaware of the procedures for
filing a FBI whistleblower complaint until the MSPB’s Final
. Decision on October 28, 2013. At no time did the FBI provide
Jones with any notice whatsoever on the procedures for filing a
FBI whistleblower complaint. On October 31, 2013, Jones filed
his FBI whistleblower complaint with the U.S. Department of
Justice (DoJ). On December 20, 2013, DoJ dismissed Jones’s
complaint for lack of jurisdiction because his disclosures were
only made to his supervisors. On January 17, 2014, Jones
appealed DoJ’s decision to the Deputy Attorney General (DAG).
After almost three years on appeal, on November 28, 2016, one
day before the House unanimously passed the FBI
Whistleblower Protection Enhancement Act (WPEA), the
DAG’s Office summarily dismissed Jones’s appeal for lack of
jurisdiction stating that he only made his disclosures to his
supervisors. The FBI WPEA clearly states that disclosures
made to supervisors are protected disclosures, and the
Congressional Record for the FBI WPEA plainly states that
disclosures made to supervisors were always meant to be

6

4r=r

seven years, Jones has been unable to obtain any
measure of justice in his FBI whistleblower case.4
At the same time Jones was offered the GS-15
position at the FBI, Jones was very fortunate to also
be offered an exceptional position with a worldwide
leader in construction and engineering company at
higher pay than the FBI position. After careful
consideration, Jones determined that the GS-15
position better aligned with his career goals, and
Jones decided to take the position with the FBI. The
FBI stated in writing that it would not be a problem
to match in pay the offer Jones received from the
private company, Jones relied on good faith on this
promise, and Jones accepted the offer from the FBI.
However, after Jones’s employment began with the
FBI, the FBI denied his pay-matching offer as well
as his application for student loan repayment
assistance.
On August 15, 2012, Jones filed a formal
equal employment opportunity (EEO) complaint
protected. On December 16, 2016, the same day that the FBI
WPEA was signed into law, ODAG summarily dismissed
Jones’s motion for reconsideration of ODAG’s November 28,
2016 decision. Jones is specifically mentioned in the
Congressional Record for the FBI WPEA for playing a relevant
part in assisting to get the legislation signed into law.
Following ODAG’s December 16, 2016 second dismissal of
Jones’s case, two separate efforts by two separate Senators to
get Jones’s FBI whistleblower case reopened in light of the FBI
WPEA were summarily denied.
4 The manifest injustice of Jones’s FBI whistleblower case has
received considerable media interest from The Washington
Post, Federal News Network, Consortium News, and several
blog articles. Jones has also received repeated support and
assistance from three Senators, a Congressman, and the
National Whistleblower Center.

7

alleging race, sex, and age discrimination and
reprisal for the denial of Jones’s pay-matching offer
and his student loan repayment application.
On August 24, 2012, Jones was removed from
the FBI for alleged failure to meet the suitability
standards without notice and without an opportunity
to respond to the allegations.
On September 20, 2012, Jones, through his
prior attorney, timely filed a “mixed case” appeal to
the MSPB claiming that his August 24, 2012
removal from the FBI was in retaliation for
whistleblowing and in retaliation for filing the
formal EEO complaint. It is undisputed that Jones’s
MSPB case is a “mixed case” appeal.
B. Proceedings Below
Because the questions presented involve
separate and distinct claims that were active before
two different court systems at the same time, the
relevant proceedings below are briefly provided in
chronological order for ease of reference and
understanding:
On December 6, 2012, the MSPB issued its
Initial Decision dismissing Jones’s “mixed case”
appeal for lack of jurisdiction finding that only
preference eligible FBI employees have the right to
appeal an adverse action to the Board under 5
U.S.C. § 7511(a)(1)(B), (b)(8).5 It is undisputed that
5 The relevant facts regarding Jones’s employment status
before his employment at the FBI, during his employment at
the FBI, and approximately 60 days following his employment
at the FBI are undisputed. Jones was a tenured employee at
GSA, he transferred to the FBI from GSA without a break in

8

ai

the MSPB did not provide “mixed case” appeal rights
to Jones in its Initial Decision.6
service, he did not knowingly or voluntarily waive his MSPB
appeal rights upon transfer from GSA to the FBI, he was
identified as a preference eligible veteran for all four years of
service at GSA, he was identified as a preference eligible
veteran during his employment at DHS prior to his service at
GSA, the FBI vacancy announcement that he was hired under
specifically stated that any veterans’ entitlement would be
verified by the FBI, the FBI identified him as a preference
eligible veteran for his entire year of employment at the FBI,
he was not provided with any due process, i.e., notice and an
opportunity to respond, from the FBI for his alleged failure to
meet the suitability standards, and the only time the FBI
stated that Jones was not a preference eligible veteran was
after he appealed his wrongful termination to the MSPB.
Jones’s prior petitions, 15-670 and 16-1471, provide the
complete background on Jones’s identification as a preference
eligible veteran, the questions presented on the government
misconduct Jones alleged, and the answers to the questions.
6 Per MSPB precedent, the MSPB did not provide notice of
“mixed case” appeal rights with its decisions until January 28,
2013 with its decision in Cunningham v. Department of the
Army, 119M.S.P.R. 147, 1H| 10-14 (2013). However, as
Cunningham provides, and wrongfully pursuant to the
. “Separate Opinion of Anne M. Wagner,” the MSPB still did not
provide notice of “mixed case” appeal rights to appellants
whose “mixed cases” were dismissed for lack of jurisdiction, as
was Jones’s MSPB “mixed case.” Jones argued to the district
court and the court of appeals that if he had received proper
notice of his “mixed case” appeal rights from the MSPB with its
Initial Decision, then his Title VII complaint would not have
been filed prematurely. There is nothing in the record to show
that either the district court or the D.C. Circuit ever considered
the MSPB’s intentional, per Cunningham, failure to provide
proper notice of “mixed case” appeal rights to Jones.
Accordingly, Jones has been severely punished and a manifest
injustice has been thrust upon Jones because of the MSPB’s
intentional failure to provide proper notice of his “mixed case”
appeal rights. The MSPB’s failure to provide proper notice of

9

w-

m

On December 10, 2012, just four days after
the MSPB issued its Initial Decision in Jones’s
“mixed case,” this Court decided Kloeckner, plainly
holding that judicial review of a MSPB “mixed case”
belongs in federal district court.
On January 4, 2013, less than 30 days after
the Initial Decision and Kloeckner, Jones, through
his prior attorney, submitted his Title VII complaint
to the district court.
On April 18, 2013, Respondents filed its
answer.

“mixed case” appeal rights is egregious, directly impacts an
appellant’s substantive rights, warrants consideration,
constitutes reversible error, violates Perry, and the court of
appeals abused its authority to not remedy this manifest
injustice where “the errors are obvious, or if they otherwise
seriously affect the fairness, integrity, or public reputation of
judicial proceedings.” Kramer v. Gates, 481 F.3d 788, 791 (D.C.
Cir. 2007) (internal citations omitted). Because the MSPB has
been without a quorum since January 2017, the MSPB has not
been able to issue precedent on providing notice of “mixed case”
appeal rights to appellants whose “mixed cases” were dismissed
for lack of jurisdiction following Perry, however, given Anne
Wagner’s Statement in Cunningham and in light of Perry, the
MSPB would be in clear error if it did not provide notice of
“mixed case” appeal rights to appellants whose “mixed cases”
are dismissed for lack of jurisdiction, and as such, it is very
persuasive in Jones’s favor that the MSPB failed to properly
provide him with notice of his “mixed case” appeal rights.
Therefore, there can be no “mulligan,” Kramer, 481 F.3d at 792,
with Jones’s premature filing when the MSPB unlawfully, per
Perry, failed to provide notice of his “mixed case” appeal rights.
Moreover, failure to provide notice of “mixed case” appeal
rights is either a mistake under Rule 60(b)(1), or meets the
“extraordinary circumstances” standard of 60(b)(6), both of
which Jones claimed in his Rule 60(b) motion to the district
court.
10

TV

On October 28, 2013, the MSPB issued its
Final Decision again dismissing Jones’s “mixed case”
appeal for lack of jurisdiction. It is undisputed that
the Final Decision did not provide Jones with proper
notice of his “mixed case” appeal rights, the same as
with the Initial Decision.7
On October 10, 2014, almost a year after the
Final Decision, just under a year and a half since
Respondents’ answer, and after more than 15
months of discovery, Respondents moved to dismiss
for failure to exhaust administrative remedies.
On July 1, 2015, the district court granted
Respondents’ motion to dismiss for failure to exhaust
administrative remedies over Jones’s opposition.
App., infra, 17a-36a.
On April 22, 2015, more than two months
before the district court’s July 1, 2015 dismissal,
this Court decided Kwai Fun Wong holding that
“most time bars are nonjurisdictional.” 135 S. Ct at
1632; see Jones v. Department of Health and Human
Services, 834 F.3d 1361, 1366 (Fed. Cir. 2016). The
district court failed to consider Kwai Fun Wong in its
July 1, 2015 dismissal.
On September 19, 2017, the court of appeals
denied Jones’s 15-5246 Combined Petition for Panel
Rehearing and Petition for Rehearing En Banc.
During this same time, Jones’s jurisdictional
claim from his MSPB “mixed case” was still pending
before this Court in 16-1471.
On June 23, 2017, this Court decided Perry
holding that judicial review of MSPB “mixed cases”
that are dismissed by the Board for lack of

7 Supra n.6.

11

—5

jurisdiction (as Jones’s was) is in district court. 137
S. Ct. at 1988.
In accordance with Perry, Jones’s “mixed case”
appeal claims properly belong in district court.
Jones’s “unlawfully bifurcated” MSPB jurisdictional
and discrimination claims, per Perry, were both
fractured and active when Perry was decided, i.e.,
Jones’s jurisdictional claim was before this Court
and his discrimination claims were before the D.C.
Circuit when Perry was decided.8
On October 9, 2017, and on December 20,
2017, Jones timely moved for reconsideration in
district court of both of his “unlawfully bifurcated”
discrimination claims in light of Kwai Fun Wong and
his jurisdictional claim in light of Perry.
On May 28, 2018, the district court denied
Jones’s Rule 60(b) motion (App., infra, 3a-12a), and
Jones’s timely appeal to the D.C. Circuit, 18-5234,
followed.
On December 20, 2018, Jones timely
submitted his Opposition to Respondents’ Motion
For Summary Affirmance.
Respondents failed to reply to Jones’s
Opposition thereby denying the court of appeals
8 Jones’s 16-1471 petition for a writ of certiorari was timely
submitted on June 6, 2017 and denied on October 2, 2017.
Jones’s first D.C. Circuit appeal, 15-5246, was timely and
docketed on August 31, 2015. On July 14, 2017, the court of
appeals affirmed the district court’s decision in 15-5246, and on
September 19, 2017, the court of appeals denied Jones’s 155246 Combined Petition For Panel Rehearing and Petition For
Rehearing En Banc without an opinion. Perry was decided on
June 23, 2017, clearly intervening for both of Jones’s
“unlawfully bifurcated” jurisdictional claim before this Court
and his discrimination claims before the D.C. Circuit.

12

additional briefing on all of the first impression
questions regarding Kwai Fun Wong, Perry, and
Jones raised in Jones’s Opposition.
On March 1, 2019, apparently unconcerned by
Respondents’ failure to reply to Jones’s Opposition,
the D.C. Circuit issued its conclusory Per Curiam
Order granting Respondents’ motion for summary
affirmance. App., infra, la-2a.
On April 14, 2019, Jones timely submitted his
Combined Petition For Panel Rehearing and Petition
for Rehearing En Banc.
On July 10, 2019, the D.C. Circuit denied
Jones’s Combined Petition. App., infra, 37a-40a.
REASONS FOR GRANTING THE PETITION
In Jones’s Rule 60(b) motion, which includes
his motion and reply, Jones showed how the district
court’s oversight, i.e., mistake, in its July 1, 2015
dismissal without prejudice in failing to apply Kwai
Fun Wong, Perry, and the Federal Circuit’s Jones
decision in his MSPB “mixed case” warranted
reconsideration of his federal anti-discrimination
laws claims from the district court and D.C. Circuit,
and reconsideration of his jurisdictional claim from
the Federal Circuit. Contrary to the district court’s
decision and the D.C. Circuit’s summary affirmance,
the cases do entitle Jones to relief under Rule 60(b).
Kwai Fun Wong was issued more than two
months before the district court’s July 1, 2015
decision, but the district court failed to consider it.
Jones, proceeding pro se then as he is now, became
aware of Kwai Fun Wong during his D.C. Circuit 155246 appeal only after reviewing the Federal
13

-3

Circuit’s Jones decision. Jones argued Jones and
Kwai Fun Wong to the court of appeals in 15-5246;
however, the D.C. Circuit.failed to consider it,
perhaps because the district court made no mention
of Kwai Fun Wong in its decision,
But that is not the case here with Jones’s Rule
60(b) motion because the district court specifically
held that Kwai Fun Wong cannot be used to find that
a prematurely filed complaint under § 7702(e)(1)(B)
ripened on review citing Butler v. West, 164 F.3d 634
(D.C. Cir. 1999). Because the district court
Specifically rejected Kwai Fun Wong to reconsider
Jones’s case under 60(b), the D.C. Circuit was
required to review the district court’s Kwai Fun
' Wong analysis, however, the court of appeals failed
to do so.
The Federal Circuit’s Jones decision where
Kwai Fun Wong is specifically applied along with
other relevant, controlling Supreme Court cases is"'
directly contradictory to the district court’s July 1,
2015 decision, the D.C. Circuit’s 15-5246 judgment,
the district court’s May 28, 2018 decision, and the
court of appeals’ 18-5234 order. D.C. Circuit Rufe
35(b)(1)(B) specifically states that this Federal
Circuit contradiction to the court of appeals’
precedent “presents a question of exceptional
importance...”. But the D.C. Circuit ignored
35(b)(1)(B) when it granted summary affirmance,
thereby rejecting further briefing that would have
significantly benefited the D.C. Circuit because
Jones’s brief would have addressed fully 5 U.S.C. §
7702(e)(1)(B) using Kwai Fun Wong’s “most time
bars are nonjurisdictional”, 135 S. Ct at 1632,
holding combined with the other Supreme Court
. 14

„■

cases cited in Jones to show that the 120 day “time
bar” of § 7702(e)(1)(B) is also “nonjurisdictional.” As
such, Jones’s prematurely filed complaint, in
accordance with the Kwai Fun Wong analysis,
lawfully ripened on review before the district court.
Respondents’ argument against Kwai Fun Wong
portends, in the same manner as the district court
and summarily affirmed by the D.C. Circuit, that
Kwai Fun Wong exists solely in vacuum where it
could not possibly be applied for a prematurely filed
complaint/appeal under § 7702(e)(1)(B) even though
Jones plainly holds otherwise under a very similar
statute, is fatally flawed. Intentionally ignoring the
Federal Circuit’s well-reasoned Kwai Fun Wong and
other Supreme Court cases analysis in Jones for a
prematurely filed complaint/appeal to ripen on
review does not make it go away. Instead, it further
highlights this Court’s need to resolve the conflict,
especially with the Federal Circuit’s specific
admonishment of the D.C. Circuit’s failure to
comport with recent Supreme Court opinions. See
Jones, 834 F.3d at 1365-66; Agostini v. Felton, 521
U.S. 203, 236 (1997) (citing Davis v. United States, 417 U. S. 333, 342 (1974) (Court of Appeals erred in
adhering to law of the case doctrine despite
intervening Supreme Court precedent).
Jones’s MSPB “mixed case” was submitted on
September 20, 2012, and to date, more than seven
(7) years after filing, Jones has not received any
ruling whatsoever on any of his wrongful
termination discrimination and retaliation claims in
violation of Perry!Kloeckner. See Perry, 137 S. Ct.
1975, 1980 (2017) (citation and footnote omitted).

15

.--a

Pursuant with 5 U.S.C. § 7702(e)(1)(B) and
Butler, 164 F.3d 634 (D.C. Cir. 1999), Jones is
entitled to a ruling on his properly preserved
wrongful termination retaliation and discrimination
claims. Nonetheless, the district court’s July 1, 2015
decision unlawfully denies Jones from ever receiving
a ruling on his properly preserved claims. Jones’s
MSPB appeal was dismissed for lack of jurisdiction,
Jones is thus unable to refile his appeal before the
MSPB again; however, with the district court’s
dismissal without prejudice, the district court found
that Jones is required, without exception, to return
to the MSPB to exhaust his administrative remedies
even though it is impossible for him to do so.
The district court’s decision does not function
as a dismissal without prejudice; instead, it acts as a
punitive and unjust decision because it renders it
impossible for Jones to ever obtain a ruling on his
lawful Title VII claims, clearly in violation of
Congressional intent with Title VII, § 7702(e)(1)(B),
and Butler. Certainly, the district court could not
have intended to produce this absurd result that
denies Jones from ever receiving a ruling on his
properly preserved wrongful termination
discrimination and retaliation claims.9
9 Jones’s wrongful termination was on August 24, 2012, and to
date, Jones has waited more than seven years for a ruling on
his wrongful termination discrimination and retaliation claims.
This exhaustive and unnecessary waiting for a ruling is
contrary to congressional intent. 5 U.S.C. § 7702(e)(1)(B);
Butler, 164 F.3d at 642. Moreover, according to the D.C.
Circuit in Thompson u. District of Columbia, 2014-7210, p. 6
(D.C. Cir. August 12, 2016), it takes on average four years to
complete a trial in the court of appeals’ district courts, and
Jones has already went significantly beyond this four year

16

Further, neither the district court’s July 1,
2015 decision, nor the district court’s May 25, 2018
decision, nor Respondents at anytime over the last
seven years, nor the D.C. Circuit with either its 155246 judgment or 18-5234 order, provide any
argument, information, or notice whatsoever on how
Jones can correct the underlying matter and refile
his properly preserved wrongful termination
retaliation and discrimination claims in any court or
forum. App., infra, 13a-16a, 17a-36a, la-2a, 3a-12a.
In contrast to the district court’s unlawful
decisions, the Board has held that dismissals
without prejudice “must be exercised in a manner
consistent with the policies of the Board,” Selig v.
Department of the Army, 102 M.S.P.R. 189, ^ 6
(2006) (internal citations omitted), that per
Congressional mandate, Board cases “be
expeditiously adjudicated” and “that a case may not
go on indefinitely”, id., and that dismissals without
prejudice should contain a specific refiling date
especially where it is unclear when the matter
underlying the dismissal will be resolved.

average in a pretrial process for simply disputing an alleged
failure to exhaust administrative remedies in light of Kwai Fun
Wong that was decided more than two months before the
district court’s July 1, 2015 decision which the district court,
and the D.C. Circuit on two separate instances, 15-5246 and
18-5234, failed to consider. According to Thompson, upon
remand, Jones has to wait another four years for a ruling, for a
total of at least eleven years,: three years more than double the
time of the average litigant, all while enduring significant,
years-long litigation costs and financial ruin, to simply obtain a
ruling on his properly preserved wrongful termination
discrimination and retaliation claims.

17

S£2—

Argabright v. Department of Defense, 113 M.S.P.R.
152, t 6 (2010).
It is undisputed that the district court’s
dismissal without prejudice does not contain a
specific refiling date. Indeed, the district court’s
decision contains no information whatsoever on how
to resolve the underlying matter resulting in Jones’s
case going on indefinitely without a ruling, contrary
to Congressional mandate per Selig and Argabright,
and contrary to Congressional mandate with §
7702(e)(1)(B) and Butler.
Pursuant with 5 U.S.C. § 7702(e)(1)(B) and
Butler, Jones is entitled to a ruling on his properly
preserved wrongful termination discrimination and
retaliation claims. The district court’s decisions and
the D.C. Circuit’s decisions unlawfully deny Jones
his entitlement because it places him in the realm of
impossibility where his properly preserved wrongful
termination discrimination and retaliation claims
will never be reviewed by any court or forum.
In accordance with Perry, 137 S. Ct. at 1988,
the Federal Circuit does not have jurisdiction to
review “mixed cases.” Because Jones’s case is a
“mixed case,” Perry bars Jones from an action to
reopen his jurisdictional claim before the Federal
Circuit. See id. Therefore, Jones’s lawful and only
forum for reconsidering his jurisdictional claim from
the Federal Circuit is the district court where
Jones’s “mixed case” wrongful termination
retaliation and discrimination claims reside.
The district court’s May 25, 2018 holding in
note 5 (App., infra, 9a) that Jones neither “provided”
nor the court found “no basis” to apply Perry
“retroactively” is reversible error that guts the entire
18

purpose of a properly submitted motion for relief
under 60(b).
This Court’s review is warranted in light of
the court of appeals’ repeated and apparently
intentional failure to follow this Court’s binding
precedent providing that most statutory time bars
are nonjurisdictional. Because the right of
jurisdiction is at issue as well as the proper
application of Rule 60(b), all similarly situated
petitioners will likewise be precluded from the access
to justice without review. The petition for a writ of
certiorari should be granted and the court of appeals’
decisions should be reversed.
I.

THIS COURT’S DECISION IN KWAIFUN
WONG SHOWS THAT THE 120 DAY TIME
BAR OF 5 U.S.C. § 7702(e)(1)(B) IS
NONJURISDICTIONAL

The court of appeals erred in failing to find
that this Court’s analysis in Kwai Fun Wong shows
that the 120 day time bar of 5 U.S.C. § 7702(e)(1)(B)
is nonjurisdictional.
Contrary to the D.C. Circuit’s order, the
merits of the parties’ positions are not so clear as to
warrant summary action, see Taxpayers Watchdog,
Inc. v. Stanley, 819 F.2d 294, 297 (D.C. Cir. 1987)
(per curiam) (emphasis added), the district court did
abuse its discretion in denying Jones’s Rule 60(b)
motion, and the case should have been calendared
for presentation to a merits panel. Without the
benefit of full briefing and oral argument, the Order
granting summary affirmance resulted in the
establishment of at least two new precedents
/

)

19

regarding binding precedent from this Court — Kwai
Fun Wong and Perry - and split with authoritative
precedent from the Federal Circuit that addressed
the statutory time bar jurisdictional issue, Jones.
All of the issues Jones raised regarding Kwai Fun
Wong, Perry, and Jones were cases of first
impression for the district court and D.C. Circuit.
With its Order, the court of appeals summarily
affirmed (1) the district court’s first-ever
interpretation and decision that Kwai Fun Wong has
no effect whatsoever on a prematurely filed Title VII
complaint under § 7702(e)(1)(B) in district court
ripening on review, (2) the district court’s first-ever
interpretation and decision that the Federal Circuit’s
glaring split in Jones with the D.C. Circuit’s Butler
precedent on a prematurely filed complaint/appeal
ripening on review provides no guidance, much less
any support, for Jones, and (3) the district court’s
first-ever interpretation and decision that Perry does
not allow under any circumstances for a timely Rule
60(b) motion to be submitted on a judgment from the
Federal Circuit. The D.C. Circuit ignored the fact
that the district court specifically interpreted and
ruled on all three of these first-ever issues, and that
Jones timely appealed these first-ever rulings.
These issues are now that of first impression before
this Court, and the now newly established D.C.
Circuit precedents on Kwai Fun Wong and Perry,
along with the circuit split with Jones, cannot be
allowed to stand.10 Further briefing from the parties
and oral argument would have properly enabled the
10 The D.C. Circuit failed to identify its first-ever rulings on
these issues with Kwai Fun Wong, Perry, and Jones as
precedential. App., infra, la-2a, 37a-38a, 39a-40a.

20

m.

D.C. Circuit to establish its new precedents on these
issues while securing and maintaining the court of
appeals’ decisions in line with binding precedent
from this Court. Because the D.C. Circuit failed to
analyze and decide these issues, this Court should do
so now.
This Court held that “[a] district court by
definition abuses its discretion when it makes an
error of law.” Smalls u. United States, 471 F.3d 186,
191 (D.C. Cir. 2006) (citations omitted). The district
court, for the first time ever, specifically and
unlawfully held that this Court’s decision in Kwai
Fun Wong that “most time bars are
nonjurisdictional”, 135 S. Ct at 1632, cannot be used
to find that a prematurely filed Title VII complaint
under § 7702(e)(1)(B) ripened on review is an abuse
of discretion and cannot be allowed to stand. See
Smalls, 471 F.3d at 191 (citations omitted).
The last occasion where the D.C. Circuit
analyzed the 120 day time bar of 5 U.S.C. §
7702(e)(1)(B) was on June 14, 2016 in Morris v.
McCarthy, 825 F.3d 658 (D.C. Cir. 2016); however,
even though Kwai Fun Wong was decided in 2015,
there is no reference to Kwai Fun Wong in Morris.
And because the Federal Circuit’s Jones decision was
decided approximately two months after Morris,
there was no opportunity for a Jones analysis in
Morris. Here, even though Kwai Fun Wong shows
that the 120 day time bar of § 7702(e)(1)(B) is
nonjurisdictional, using the D.C. Circuit’s non-Kwai
Fun Wong analysis of § 7702(e)(1)(B) in Morris, the
glaring dispositive distinction in Jones’s favor
between Morris and Jones is that the appellant’s
complaint in Morris did not ripen on review because
21

— - as

rr- ^;

the appeal was not before the Board for 120 days;
whereas, it is undisputed that Jones “mixed case”
appeal was actively pending before the Board for
more than 120 days (Jones’s “mixed case” appeal was
before the Board for approximately 403 days
straight).
With the district court’s interpretation and
ruling on Kwai Fun Wong, Perry, and Jones, Jones’s
case specifically provided the D.C. Circuit with this
now required post-Morris § 7702(e)(1)(B) analysis
opportunity. But instead of calendaring for
presentation to a merits panel or to the D.C. Circuit
en banc, the court of appeals committed clear error
when it summarily affirmed all of the district court’s
first-ever interpretations and rulings on Kwai Fun
Wong, Perry, and Jones without any analysis
whatsoever.
Given that both the Federal Circuit and the
1st Circuit follow this Court’s precedent that a “stay”
is equivalent to a “dismissal” in finding that a
prematurely filed appeal “ripens on review,” Jones,
834 F.3d at 1365-1366 (citing Moses H. Cone Mem.
Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 28
(1983); Craker v. Drug Enf't Admin., 714 F.3d 17, 25
(1st Cir. 2013)), and given the specific facts and
circumstances of Jones’s case, Jones’s Title VII
complaint under § 7702(e)(1)(B) “ripened on review”
before the district court pursuant with Kwai Fun
Wong and Moses.11 Full briefing and oral argument
11 Using the D.C. Circuit’s Morris analysis of the 120 day time
bar of § 7702(e)(1)(B), here, 120 days had long since passed
when Respondents submitted its answer on April 18, 2013 as
Jones’s “mixed case” appeal was still before the MSPB until
October 28, 2013.

22

before a merits panel or the D.C. Circuit en banc
would have ensured full consideration of these first
impression issues.
II.

THE CIRCUIT SPLIT ON KWAI FUN
WONG PROVIDING THAT MOST TIME
BARS ARE NON JURISDICTIONAL
REQUIRES REVIEW TO BRING
COHERENCE AND CLARITY TO 5 U.S.C.
§ 7702(e)(1)(B)

Without any reference, analysis, or even a
citation to the Federal Circuit’s 2016 precedential
decision in Jones where Kwai Fun Wong was used to
find that a prematurely filed MSPB appeal ripened
on review, the D.C. Circuit summarily affirmed the
district court’s dismissal of Jones in favor of its own
precedent from 1999 in Butler, 164 F.3d 634 (D.C.
Cir. 1999). Most notably, even though Jones argued
in his 60(b) motion/reply that the Federal Circuit
specifically admonished the D.C. Circuit for its
“incomplete” analysis by failing to reconsider Butler
in light of Kwai Fun Wong, the district court failed to
mention in its decision both the Federal Circuit’s
admonishment and the Supreme Court cases in
Jones that facially appear, without analysis, to
overrule Butler. App., infra, 3a-12a. The D.C.
Circuit’s Order constitutes clear error because it
disregards a glaring split between the Federal
Circuit and the court of appeals based entirely upon
analysis of Supreme Court precedent, Kwai Fun
Wong, that until Jones’s case, the D.C. Circuit had
never considered. Summarily affirming the district
court’s first-ever interpretation and ruling on Kwai
23

Fun Wong and Jones does not make it go away and it
cannot be allowed to stand. The D.C. Circuit should
have vacated the Order and calendared this case for
presentation to a merits panel or the court of appeals
en banc to fully consider these issues and the D.C.
Circuit’s precedents. Because the D.C. Circuit failed
to analyze and decide these issues, this Court should
do so now.
III.

THIS COURT’S DECISION IN PERRY
DOES NOT ABROGATE THE PROPER
APPLICATION OF RULE 60(B)

To ensure that MSPB “mixed cases” that are
dismissed for lack of jurisdiction are no longer
“unlawfully bifurcated” between the Federal Circuit
and federal district court, this Court in Perry held
that both the jurisdictional claim, previously before
the Federal Circuit, and the discrimination claim(s),
no change as they remain in district court, from
MSPB “mixed cases” belong in district court. This
Court in Agostini, 521 U.S. 203 (1997), plainly holds
that the proper application of Rule 60(b) cannot be
abrogated, id. at 238-40, and it was certainly
foreseeable when Perry was decided that a properly
submitted Rule 60(b) motion on the “unlawfully
bifurcated” (per Perry) jurisdictional claim ruling
from the Federal Circuit would be submitted to the
district court for review. Indeed, there is nothing in
Perry that abrogates a properly submitted Rule 60(b)
motion. Accordingly, Perry bars review of any Rule
60(b) motion on an “unlawfully bifurcated”
jurisdictional claim before the Federal Circuit, and
establishes that any possible 60(b) motion on
24

.. x.

.........•.■•■...a-.-'. -•

jurisdiction would be before a federal district court
and not the Federal Circuit. Jones’s Rule 60(b)
motion on his “unlawfully bifurcated” jurisdictional
Federal Circuit judgment was properly submitted to
the district court in accordance with Perry, Agostini,
and Rule 60(b).
The D.C. Circuit’s reliance on Smalls to
summarily dismiss review or even consideration of
Jones’s 60(b) jurisdictional judgment under any
circumstances is fatally flawed. First, the glaring
distinction between Smalls and Jones’s case is that
there is no intervening, forum-shifting of claims
Supreme Court precedent, i.e., Perry, in Smalls as
there is in Jones’s case. See Agostini v. Felton, 521
U.S. 203, 236 (1997) (citing Davis v. United States,
417 U. S. 333, 342 (1974) (Court of Appeals erred in
adhering to law of the case doctrine despite
intervening Supreme Court precedent). Second,
Perry, in correlation with Agostini and its progeny,
established a limited exception to Smalls and 28
U.S.C. § 1254 because they enable a properly
submitted Rule 60(b) motion on a Perry, forumshifted claim ruling from the Federal Circuit to be
reviewed in district court and the D.C. Circuit. And
third, contrary to the authority provided by Perry
and Agostini for review of a properly submitted 60(b)
motion in district court, the D.C. Circuit’s Order
unlawfully strands Jones without a forum for review
of his properly submitted 60(b) motion on his
“unlawfully bifurcated” jurisdictional claim ruling.
Just as Perry held that MSPB “mixed case” claims
cannot be “unlawfully bifurcated” between two
different forums, Perry, along with Agostini, also
establishes that the proper application of Rule 60(b)
25

a

cannot “unlawfully bifurcate” a forum for the
discrimination claim(s) ruling but no forum for the
jurisdictional claim ruling. Moreover, even if the
court of appeals or the D.C. Circuit en banc held that
Perry did not establish a limited exception to Smalls
and § 1254,12 the court of appeals or the D.C. Circuit
en banc can certainly consider the record before the
Federal Circuit and not sit to review the Federal
Circuit’s decision/judgment. Indeed, the D.C. Circuit
in Smalls did just that when it considered the record
of the Federal Circuit, 471 F.3d at 192 (“The Federal
Circuit directed the Hawaii district court to dismiss
Mr. Smalls’s claims based on the bar of the statute of
limitations.”), without reviewing the Federal
Circuit’s decision/judgment, id., and the D.C. Circuit,
as it did in Smalls and as all the other circuits do,
frequently considers the record of cases from other
circuits when issuing its decisions, see, e.g., Kramer,
481 F.3d at 790, 792. Consideration of the record of
Jones’s jurisdictional claim before the Federal
Circuit, and not reviewing the Federal Circuit’s
decisions/judgment on his jurisdictional claim, is all
that is necessary under Jones’s 60(b)(3) motion as
the record before the Federal Circuit (as well as this
Court in 15-670 and 16-1471 and the MSPB) is
replete with Jones’s well-pleaded accusations of
government misconduct. Therefore, there is no
violation of Smalls or § 1254 as the D.C. Circuit
12 Most notably, the Federal Circuit in Jones plainly violated
Smalls and § 1254 when it reviewed and specifically
admonished the D.C. Circuit’s “incomplete” analysis of this
Court’s precedent in Western Union and its progeny. See Jones,
834 F.3d at 1366. Therefore, the D.C. Circuit’s reliance on
Smalls and § 1254 to summarily dismiss Jones’s 60(b) motion is
plain error and cannot be allowed to stand.

26

summarily concluded with its Order, and Jones’s
case should have been calendared for presentation to
a merits panel or the court of appeals en banc with
the resulting decision made precedential.
IV.

THE QUESTIONS PRESENTED ARE
IMPORTANT AND WARRANT THIS
COURT’S REVIEW

According to the district court and the D.C.
Circuit, the questions presented are dispositive on
the threshold issue of jurisdiction. Because most
claimants before the Board proceed pro se, see, e.g.,
U.S. Merit Systems Protection Board, Congressional
Budget Justification FY 2017 (Feb. 2016), at 14
(“Generally, at least half or more of the appeals filed
with the agency are from pro se appellants.”),
available at http://tinyurl.com/zcv61xj (last visited
Jun. 3, 2017), and as further evidenced by Jones
proceeding before this Court pro se (as he did in 15670 and 16-1471), this Court should establish that
the 120 day time bar of § 7702(e)(1)(B) is
nonjurisdictional to protect the due process rights of
all federal executive branch employees with MSPB
“mixed cases.”
Following this Court’s rulings in Kloeckner
and Perry, it was reasonable perhaps to conclude
that this Court’s review would not be required again
to bring coherence and clarity to the statutory
regime governing judicial review of decisions by the
Board; however, the questions presented here
plainly show that that perception was mistaken. To
prevent manifest injustice from Perry appellants,
and all MSPB “mixed case” appellants, having their
27

lawful discrimination claims forfeited in perpetuity
simply for premature filing, statutory interpretation
of § 7702(e)(1)(B) is required. The review of §
7702(e)(1)(B) will resolve a more than three year
circuit split on whether Kwai Fun Wong’s “most time
bars are nonjurisdictional” holding provides that a
premature filing ripens on review under 5 U.S.C. §
7703(b)(1)(A) in the Federal Circuit, but does not
under § 7702(e)(1)(B) in district court.
And, review is required to prevent the court of
appeals from abrogating the proper application of
Rule 60(b) in clear violation of Agostini. Further,
review of Perry and Rule 60(b) will very likely result
in the district court considering the basis of the
questions presented in Jones’s two prior petitions,
15-670 and 16-1471: estoppel against the
Government to establish MSPB jurisdiction because
of affirmative misconduct. With this being Jones’s
third petition on what are now established as Perry
“unlawfully bifurcated” claims, neither of which
Jones has been able to proceed beyond jurisdiction,
and after seven years, it is highly unlikely that
another good vehicle for addressing the questions
presented with equally sympathetic and extreme
facts as Jones’s - no forum for his rightful federal
anti-discrimination laws claims simply because of
premature filing and no forum for his properly
submitted Rule 60(b) motion - will arise. No other
petitioner should have to endure the manifest
injustice that Jones has experienced and that Kwai
Fun Wong and Perry specifically sought to prevent.
Because of the D.C. Circuit’s noticeable disregard to
even consider Kwai Fun Wong, the circuit split on
Kwai Fun Wong, and Perry to its own precedents on
28

the questions presented, this Court should
accordingly grant certiorari now.13
CONCLUSION
For the foregoing reasons, this Court should
grant the petition.
Respectfully submitted,

Isl.
Darin A. Jones, Esq.
5266 Pooks Hill Road
Bethesda, MD 20814
DC Bar Number: 492809
Florida Bar Number: 44287
(803) 467-1734 phone
darin_Jones@hbtmail.com

October 2, 2019

13 Or in the alternative, this Court should remand to the D.C.
Circuit ordering 1) review of the court of appeals’ Butler in light
of KwaiFun Wong, and 2) review of Rule 60(b) on Federal
Circuit judgment in light of Perry and Agostini.

29

